  U.S. Department of the Interior
  Office of Inspector General




             AUDIT REPORT


DISCRETIONARY AND REPROGRAMMED FUNDS,
         OFFICE OF THE GOVERNOR,
         COMMONWEALTH OF THE
       NORTHERN MARIANA ISLANDS

               REPORT NO. 99-I-356
                  MARCH 1999
                                                                          N-IN-NMI-002-98


              United States Department of the Interior
                             OFFICE OF INSPECTOR GENERAL
                                     Washington, DC. 20240




The Honorable Pedro P. Tenorio
Governor
Commonwealth of the Northern Mariana Islands
Caller Box 10007
Saipan, MP 96950

Subject: Audit Report on Discretionary and Reprogrammed Funds, Offke ofthe Governor,
         Commonwealth of the Northern Mariana Islands (No. 9 9 - I - 3 5 6 )

Dear Governor Tenorio:

This report presents the results of our review of the Office of the Governor’s use of
discretionary and reprogrammed funds of the Commonwealth of the Northern Mariana
Islands. The objective of the audit was to determine whether the former Governor’s use of
discretionary and reprogrammed funds was proper and in accordance with applicable laws
and regulations. The scope of the audit covered fiscal years 1996,1997, and 1998 (through
December 3 1, 1997).

We found that during the period under audit, the Office of the Governor authorized the
expenditure of funds from the Governor’s discretionary fund which exceeded appropriated
amounts and made expenditures from the discretionary fund which were either not
adequately supported or, in our opinion, did not appear to have been made for a “public
purpose.” ln addition, we found that during fiscal years 1996 and 1997, the Office of the
Governor authorized the reprogramming of funds between object classifications for
appropriations that the Legislature had specifically restricted from reprogramming authority.

These deficiencies occurred because the former Governor and the former Secretary of
Finance (who served as the certifying officer) charged expenditures to the discretionary fund,
although the annual appropriations for the fund had been depleted. In addition, there were
no written policies and procedures that clearly identified the purposes for which the
discretionary fund could be used, and there was no requirement for the Governor’s Office
to prepare and submit periodic reports on the status of the discretionary fund to the
Commonwealth Legislature for oversight purposes. Also, the Office ofthe Governor had not
assigned responsibility for preparing and submitting the required quarterly and annual reports
on reprogramming actions to the Legislature. As a result, expenditures from the
discretionary fund exceeded appropriations by $900,000 in fiscal year 1996, $3.8 million in
fiscal year 1997, and $1.8 million in fiscal year 1998. ln addition, during fiscal years 1996
and 1997, appropriated funds totaling $432,764 were improperly reprogrammed.
To correct these conditions, we recommended that you, as the Governor of the
Commonwealth of the Northern Mariana Islands, direct the Attorney General of the
Commonwealth to review the overexpenditures of the former Governor’s discretionary fund
made during fiscal years 1996,1997, and 1998 and the questionable reprogramming actions
made during fiscal years 1996 and 1997 and, if appropriate, take action against those officials
responsible for approving the expenditure of funds in excess of annual appropriations and
for authorizing the improper reprogramming actions. In addition, we recommended that you
develop and implement written policies and procedures which state the purposes for which
the discretionary funds can be used and assign responsibility for ensuring that the required
quarterly and annual reports on reprogramming actions are prepared and submitted to the
Commonwealth Legislature. We also recommended that the Legislature of the
Commonwealth of the Northern Mariana Islands establish a requirement for the Office of the
Governor to submit periodic reports on the status of the discretionary funds to the
Legislature.

On December 28, 1998, we discussed the preliminary draft of this report with the Special
Assistant to the Governor for Finance and Budget, the Secretary of Finance, and the Special
Assistant to the Secretary of Finance, all of whom expressed general agreement with the
findings and recommendations.

Although you and the Legislature were requested to provide written responses to the draft
report by February 26, 1999, we had not received the responses as of March 9, 1999.
Therefore, since this report is being issued without the benefit of your response, all of the
recommendations are considered unresolved (see Appendix 2).

The Inspector General Act, Public Law 95-452, Section 5(a)(3), as amended, requires
semiannual reporting to the U.S. Congress on all audit reports issued, the monetary impact
of audit findings (Appendix l), actions taken to implement audit recommendations, and
identification of each significant recommendation on which corrective action has not been
taken.

In view of the above, please provide a response, as required by Public Law 97-357, to this
report by April 30, 1999. The response should be addressed to our Pacific Office, 415
Chalan San Antonio, Baltej Pavilion, Suite 306, Tamuning, Guam 96911. The response
should provide the information requested in Appendix 2.

We appreciate the assistance of officials at the Office of the Governor in the conduct of our
audit.




                                               Eljay B. Bowron
                                               Inspector General
                                                                           N-lN-NMI-002-98


             United      States Department of the Interior
                            OFFICE OF INSPECTOR GENERAL
                                    Washington, D.C. 20240


                                                             #AR 2 6 G!
The Honorable Paul A. Manglona
President of the Senate
Commonwealth of the Northern Mariana Islands Legislature
P.O. Box 129
Saipan, MP 96950

Subject: Audit Report on Discretionary and Reprogrammed Funds, Office of the Governor,
         Commonwealth of the Northern Mariana Islands (No. 99-I-356)

Dear President Manglona:

This report presents the results of our review of the Office of the Governor’s use of
discretionary and reprogrammed funds of the Commonwealth of the Northern Mariana
Islands. The objective of the audit was to determine whether the former Governor’s use of
discretionary and reprogrammed funds was proper and in accordance with applicable laws
and regulations. The scope of the audit covered fiscal years 1996,1997, and 1998 (through
December 3 1, 1997).

We found that during the period under audit, the Office of the Governor authorized the
expenditure of funds from the Governor’s discretionary fund which exceeded appropriated
amounts and made expenditures from the discretionary fund which were either not
adequately supported or, in our opinion, did not appear to have been made for a “public
purpose.” In addition, we found that during fiscal years 1996 and 1997, the Oftice of the
Governor authorized the reprogramming of funds between object classifications for
appropriations that the Legislature had specifically restricted from reprogramming authority.

These deficiencies occurred because the former Governor and the former Secretary of
Finance (who served as the certifying officer) charged expenditures to the discretionary fund,
although the annual appropriations for the fund had been depleted. In addition, there were
no written policies and procedures that clearly identified the purposes for which the
discretionary fund could be used, and there was no requirement for the Governor’s Office
to prepare and submit periodic reports on the status of the discretionary fund to the
Commonwealth Legislature for oversight purposes. Also, the Office ofthe Governor hadnot
assigned responsibility for preparing and submitting the required quarterly and annual reports
on reprogramming actions to the Legislature. As a result, expenditures from the
discretionary fund exceeded appropriations by $900,000 in fiscal year 1996, $3.8 million in
fiscal year 1997, and $1.8 million in fiscal year 1998. ln addition, during fiscal years 1996
and 1997, appropriated funds totaling $432,764 were improperly reprogrammed.
To correct these conditions, we recommended that the Governor direct the Attorney General
of the Commonwealth of the Northern Mariana Islands to investigate the overexpenditures
of the former Governor’s discretionary fund made during fiscal years 1996,1997, and 1998
and the questionable reprogramming actions made during fiscal years 1996 and 1997 and,
if appropriate, take action against those officials responsible for approving the expenditure
of funds in excess of annual appropriations and for authorizing the improper reprogramming
actions. In addition, we recommended that the Governor develop and implement written
policies and procedures which state the purposes for which the discretionary funds can be
used and assign responsibility for ensuring that the required quarterly and annual reports on
reprogramming actions are prepared and submitted to the Commonwealth Legislature. We
also recommended that the Legislature of the Commonwealth of the Northern Mariana
Islands establish a requirement for the Office of the Governor to submit periodic reports on
the status of the discretionary funds to the Legislature.

On December 28, 1998, we discussed the preliminary draft of this report with the Special
Assistant to the Governor for Finance and Budget, the Secretary of Finance, and the Special
Assistant to the Secretary of Finance, all of whom expressed general agreement with the
findings and recommendations.

Although the Legislature and the Governor were requested to provide written responses to
the draft report by February 26,1999, we had not received the responses as of March 9,1999.
Therefore, since this report is being issued without the benefit of your response, all of the
recommendations are considered unresolved (see Appendix 2).

The Inspector General Act, Public Law 95-452, Section 5(a)(3), as amended, requires
semiannual reporting to the U.S. Congress on all audit reports issued, the monetary impact
of audit findings (Appendix l), actions taken to implement audit recommendations, and
identification of each significant recommendation on which corrective action has not been
taken.

In view of the above, please provide a response, as required by Public Law 97-357, to this
report by April 30, 1999. The response should be addressed to our Pacific Office, 415
Chalan San Antonio, Baltej Pavilion, Suite 306, Tamuning, Guam 96911. The response
should provide the information requested in Appendix 2.

We appreciate the assistance of officials at the Legislature during the conduct of our audit.




                                              Eljay B. Bowron
                                              Inspector General
                                                                           N-IN-NMI-002-98


              United States Department of the Interior
                            OFFKE OF INSPECTOR GENERAL
                                    Washington, DC 20240




The Honorable Diego T. Benavente
Speaker, House of Representatives
Commonwealth of the Northern Mar&a Islands Legislature
P.O. Box 586
Saipan, MP 96950

Subject: Audit Report on Discretionary and Reprogrammed Funds, Offke of the Governor,
         Commonwealth of the Northern Mariana Islands (No. 99-I-356)

Dear Mr. Speaker:

This report presents the results of our review of the Offke of the Governor’s use of
discretionary and reprogrammed funds of the Commonwealth of the Northern Mariana
Islands. The objective of the audit was to determine whether the former Governor’s use of
discretionary and reprogrammed funds was proper and in accordance with applicable laws
and regulations. The scope of the audit covered fiscal years 1996,1997, and 1998 (through
December 3 1, 1997).

We found that during the period under audit, the Office of the Governor authorized the
expenditure of funds from the Governor’s discretionary fund which exceeded appropriated
amounts and made expenditures from the discretionary fund which were either not
adequately supported or, in our opinion, did not appear to have been made for a “public
purpose.” In addition, we found that during fiscal years 1996 and 1997, the Offtce of the
Governor authorized the reprogramming .of funds between object classifications for
appropriations that the Legislature had specifically restricted from reprogramming authority.

These deficiencies occurred because the former Governor and the former Secretary of
Finance (who served as the certifying officer) charged expenditures to the discretionary fund,
although the annual appropriations for the fund had been depleted. In addition, there were
no written policies and procedures that clearly identified the purposes for which the
discretionary fund could be used, and there was no requirement for the Governor’s Offke
to prepare and submit periodic reports on the status of the discretionary fund to the
Commonwealth Legislature for oversight purposes. Also, the Office ofthe Governor had not
assigned responsibility for preparing and submitting the required quarterly and annual reports
on reprogramming actions to the Legislature. As a result, expenditures from the
discretionary fund exceeded appropriations by $900,000 in fiscal year 1996, $3.8 million in
fiscal year 1997, and $1.8 million in fiscal year 1998. In addition, during fiscal years 1996
and 1997, appropriated funds totaling $432,764 were improperly reprogrammed.
To correct these conditions, we recommended that the Governor direct the Attorney General
of the Commonwealth of the Northern Mariana Islands to investigate the overexpenditures
of the former Governor’s discretionary fund during fiscal years 1996, 1997, and 1998 and
the questionable reprogramming actions made during fiscal years 1996 and 1997 and, if
appropriate, take action against those officials responsible for approving the expenditure of
funds in excess of annual appropriations and for authorizing the improper reprogramming
actions. In addition, we recommended that the Governor develop and implement written
policies and procedures which state the purposes for which the discretionary funds can be
used and assign responsibility for ensuring that the required quarterly and annual reports on
reprogramming actions are prepared and submitted to the Commonwealth Legislature. We
also recommended that the Legislature of the Commonwealth of the Northern Mariana
Islands establish a requirement for the Office of the Governor to submit periodic reports on
the status of the discretionary funds to the Legislature.

On December 28, 1998, we discussed the preliminary draft of this report with the Special
Assistant to the Governor for Finance and Budget, the Secretary of Finance, and the Special
Assistant to the Secretary of Finance, all of whom expressed general agreement with the
findings and recommendations.

Although the Legislature and the Governor were requested to provide written responses to
the draft report by February 26,1999, we had not received the responses as of March 9,1999.
Therefore, since this report is being issued without the benefit of your response, all of the
recommendations are considered unresolved (see Appendix 2).

The Inspector General Act, Public Law 95-452, Section 5(a)(3), as amended, requires
semiannual reporting to the U.S. Congress on all audit reports issued, the monetary impact
of audit findings (Appendix l), actions taken to implement audit recommendations, and
identification of each significant recommendation on which corrective action has not been
taken.

In view of the above, please provide a response, as required by Public Law 97-357, to this
report by April 30,1999. The response should be addressed to our Pacific Field Office, 415
Chalan San Antonio, Baltej Pavilion, Suite 306, Tamuning, Guam 96911. The response
should provide the information requested in Appendix 2.

We appreciate the assistance of the management and     staff of   the Legislature in the conduct
of our audit.




                                              Eljay B. Bowron
                                              Inspector General
                                                  CONTENTS

                                                                                                                         Page

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     1

        BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      1
        OBJECTIVE AND SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             2
        PRIORAUDITCOVERAGE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  2

FINDINGS             AND          RECOMMENDATIONS                          .................................               3

        A. EXF’ENDITURE CONTROL .................................... 3
        B. REPROGRAMMIN G ACTIONS ................................. 7

OTHER MATTERS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

APPENDICES

        1. CLASSIFICATION OF MONETARY AMOUNTS ................... 10
        2. STATUS OF AUDIT REPORT RECOMMENDATIONS .............. 11
I‘
:i


                                         INTRODUCTION

     BACKGROUND

     During each of fiscal years 1996 through 1998, the Commonwealth of the Northern Mariana
     Islands Legislature made annual appropriations of $500,000 for the Governor’s discretionary
     fund and $100,000 for the Lieutenant Governor’s discretionary fund. Historically, these
     appropriations have been made without any specific restrictions other than a constitutional
     restriction that requires each appropriation to be used for a “public purpose,” which was
     based on the judgment of the Governor and Lieutenant Governor with respect to expenditures
     charged to the two funds.

     Organizationally, the Office of the Governor comprises the Governor’s and the Lieutenant
     Governor’s offices and other entities, including the Office of Management and Budget, the
     Office of Personnel Management, and the Emergency Management Offtce. In addition. the
     Secretary of the Department of Finance is responsible for certifying the availability of funds
     prior to approving any disbursement of funds. Further, the Special Assistant for the Offke
     of Management and Budget’ is responsible for monitoring the Executive Branch’s budget,
     including any reprogramming actions.

     The expenditure of discretionary funds, as well as other annual appropriations, is governed
     by Title 1, Section 7401 (“Expenditure of Appropriated Funds”), of the Commonwealth
     Code, which limits expenditures to the amount of funds appropriated. Further, Title 1,
     Section 7402(a)( 1) (“Reprogramming Authority”), of the Commonwealth Code states that
     “no obligation or contract for the expenditure of Commonwealth funds shall be made for any
     purposes other than public purposes for which the funds are appropriated.” In addition to
     the restrictions set forth in Section 7402(a)(l), each annual appropriation law may contain
     reprogramming restrictions that apply to a specific fiscal year. Finally, Section 7402(e)
     requires the Governor to report all reprogramming actions to the Legislature within 30 days
     after the end of each quarter and within 60 days after the end of each fiscal year

     Title 1, Section 7701(a) (“C riminal Offenses”), of the Commonwealth Code states, “No
     officer or employee of the Commonwealth shall willfully and knowingly make or authorize
     any expenditure from or create or authorize any obligation or allotment under any
     appropriation or fund in excess of the amount available therein.” In addition,
     Section 770 1 (b) states:

             No officer or employee of the Commonwealth shall willfully and knowingly
             involve the Commonwealth or any agency in any contract or other obligation
             for the payment of money for any purpose, or make or authorize any payment
             out of the Commonwealth Treasury, in advance of, or in the absence of,



     ‘The Special Assistant is the most senior-level offkial of the Commonwealth’s Office of Management and
     Budget.

                                                       1
        appropriations made for such purposes, unless such contract or obligation is
        authorized by law or joint resolution.

Further, Section 7702 (“Penalties for Violations”) states, “Every person who willfully and
knowingly violates any provision of 1 CMC [Commonwealth Code] $ 7701 is guilty of a
crime, and upon conviction thereof shall be fined not more than $2,000 or imprisoned not
more than two years, or both.”

OBJECTIVE AND SCOPE

The objective of the audit was to determine whether the former Governor’s use of
discretionary and reprogrammed funds was proper and in accordance with applicable laws
and regulations. To accomplish our objective, we interviewed officials at the Legislature,
the Governor’s Office, the Offke of Management and Budget, the Department of Finance,
the Department of Lands and Natural Resources, and the Office of the Public Auditor. In
addition, we reviewed applicable financial and administrative records maintained at the
Office of Management and Budget and the Department of Finance. Our review covered
fiscal years 1996,1997, and 1998 (through December 3 1, 1997).

The audit was made, as applicable, in accordance with the “Government Auditing
Standards,” issued by the Comptroller General of the United States. Accordingly, we
included such tests of records and other auditing procedures that were considered necessary
under the circumstances.

As part of the audit, we evaluated accounting and management controls over appropriations,
reprogramming actions, and expenditures. We found major internal control weaknesses in
all of these areas, which are discussed in the Findings and Recommendations section of this
report. Our recommendations, if implemented, should improve the internal controls in these
areas.

PRIOR AUDIT COVERAGE

During the past 5 years, neither the General Accounting Offke nor the Offke of Inspector
General has issued any audit reports pertaining to the Offke of the Governor’s discretionary
and reprogrammed funds. However, in December 1998, the Office of the Public Auditor,
Commonwealth of the Northern Mariana Islands, issued the audit report “Audit of Misuse
of Funds by the Former Secretary of Finance - Fiscal Years 1995, 1996, and 1997,” which
included a review of the Office of the Governor’s discretionary fimd. The report stated that
the former Secretary of Finance did not use public funds of $100,249 appropriately in that
duplicate payments were made for travel expenses ($30,000) and expenses for questionable
purchases were reimbursed. In addition, at the time of our review, the Office of the Public
Auditor was performing an audit of the professional services contracts of the
Commonwealth’s Executive Branch from October 1995 to May 1998, which will also
include a review of the Offke of the Governor’s discretionary fund.


                                             2
                    FINDINGS AND RECOMMENDATIONS

A. EXPENDITURE CONTROL

During fiscal years 1996, 1997, and 1998 (through December 3 1, 1997) the Office of the
Governor authorized the expenditure of funds from the Governor’s discretionary fund that
exceeded the amounts appropriated and made expenditures from the Governor’s
discretionary fund that were either not adequately supported or, in our opinion, did not
appear to have been made for a “public purpose.” These deficiencies occurred because the
former Governor and the former Secretary of Finance (who served as the certifying offker)
made expenditures after the discretionary funds provided by the annual appropriations had
been depleted. In addition, there were no written policies and procedures that clearly
identified the purposes for which the discretionary fund could be used, and there was no
requirement for the Governor’s Office to prepare and submit periodic reports on the status
of the discretionary fund to the Commonwealth Legislature for oversight purposes. As a
result, the discretionary expenditures exceeded appropriations by $900,000 in fiscal year
1996, $3.8 million in fiscal year 1997, and $1.8 million in fiscal year 1998 (through
December 3 1, 1997).

Appropriations and Expenditures
Based on our review of accounting records maintained by the Commonwealth’s Department
of Finance, we determined that for fiscal years 1996, 1997, and 1998 (through
December 3 1,1997), expenditures made from the Lieutenant Governor’s discretionary fund
did not exceed the appropriated amounts in any of the 3 fiscal years reviewed. However,
expenditures made from the Governor’s discretionary fund exceeded appropriated amounts
in all 3 fiscal years, as shown in Table 1.

               Table 1. Discretionary Fund Appropriations and Expenditures
                                          hDroDriated*                     Exoended                              Balance

Lieutenant Governor’s Fund

Fiscal Year:        1996                    $95,683                             $33,914                            $61,769
                    1997                    193,489                             186,93 1                             6,558
                    1998                    100.000                                                                 88,624
                    Subtotals             $389.172                                                                $156.951

Governor’s Fund

Fiscal Year:        1996                    $589,593                        s 1,485.673                          ($896,080)
                    1997                     616,289                         4,440,402                          (3,824,113)
                    1998                     498.000                         2.254.817**                        (1.756817
                    Subtotals             $1.703.882                        $8.180.892                        ($6.477.0 IO]

         Totals                           $2.093.054                        $8.413.113                        lS6.320.0591

         *Although the amounts initially appropriated each year were S500,OOO for the Governor’s discretionary fund and
         SlOO,OOO for the Lieutenant Governor’s discretionary fund, both fund amounts were subsequently adjusted as a result
         of reprogramming actions
         **This amount includes encumbrances of 5220,399 that were outstanding as of December 3 I. 19%‘.



                                                                 3
Unsupported Expenditures

Of the expenditures of $8.4 million made from the Governor’s and the Lieutenant
Governor’s discretionary funds during fiscal years 1996, 1997, and 1998 (through
December 3 1, 1997), we selected and reviewed a sample of 285 expenditure transactions,
totaling $5 million, to determine whether the funds were used in accordance with applicable
laws and regulations. Based on our review of these transactions, we determined that the
expenditures made from the former Lieutenant Governor’s discretionary fund generally
appeared to have been proper. However. we found that the former Governor authorized the
expenditure of funds from the discretionary fund for (1) professional services, operating
expenditures, and land purchases, which we believe should have been funded either through
separate appropriations or from operating accounts, and (2) purposes that were not
adequately supported or, in our opinion, did not appear to have been made for a “public
purpose.”

         Professional Services. We found that beginning in fiscal year 1995, the former
Governor initiated a major lobbying effort to stop legislation pending in the U.S. Congress
that, if passed, would have taken away the Commonwealth’s control over its immigration
policies and required the Commonwealth to comply with United States minimum wage laws.
To assist in this lobbying effort, the former Governor retained the services of at least three
consultants. Based on our review of accounting records maintained by the Department of
Finance, we found that the payments made from the discretionary fund to the three
consultants totaled $225,829 in fiscal year 1996, $1523,272 in fiscal year 1997, and
$83 3,5 11 in fiscal year 1998 (through December 3 1, 1997). In our opinion, because of the
substantial amount of funds involved, a request should have been submitted to the
Legislature to obtain separate appropriations for this lobbying effort.

        Operating Expenditures. We identified expenditures totaling $584,955 during
fiscal years 1996,1997, and 1998 (through December 3 1,1997) that, in our opinion, were
operational in nature in that they related to the day-to-day operations of the Commonwealth
government and therefore should have been charged to the operational accounts of the
government. The expenditures were made for purposes such as leased vehicles, equipment
rental and purchase, janitorial and maintenance services, repairs and renovation of
government facilities, and printing and photocopying. Specific examples of operating
expenditures identified included lease payments for six pickup trucks and two passenger cars
($8,892), cleaning services for the Governor’s office ($36,800), materials to construct a fence
($1,552) gas and oil charges for a member of the Legislature ($4,146), and printing charges
for a government directory ($50,000). These expenditures were similar to expenditures made
from regular operating accounts of the Commonwealth government.

        Land Purchases.        During fiscal year 1996, the former Governor used the
discretionary fund to settle two land claims totaling $91,934. As of March 29, 1996, the
Division of Public Lands, Department of Lands and Natural Resources, had 142 certified
“right of way” land claimants covering 45,509 square meters of land obtained by the
Commonwealth for road construction and other public access rights of way, with the oldest
claim having a certification date of November 30, 1988. According to the Director of the

                                              4
Division of Public Lands, the large number of unpaid claims was directly related to the lack
of available funds to pay all of the land claimants. Using the claim certification date on the
Division of Public Lands listing of claimants to rank the claims, we determined that the two
land claims paid from the discretionary fund held the 62nd ($10,260, certified April 22,
1993) and 129th ($8 1,674, certified October 27,1995) priority positions on the list of 142
claimants. In our opinion, the claims that were certified earlier should have had a higher
priority and should have been paid prior to the two claims which were paid from the
Governor’s discretionary fund.

Other Expenditures

We found that during fiscal years 1996,1997, and 1998 (through December 3 1,1997), the
former Governor authorized the expenditure of $87,402 of discretionary funds for purposes
that were either inadequately supported or did not appear to have been made for “public
purposes.” The expenditure transactions consisted of unsupported or inadequately supported
travel advances ($42,500) and charges for meals, liquor, tobacco products, and entertainment
($35,814); canopy rentals for church and private functions ($5,439); and a notebook
computer that could not be accounted for ($3,649).

Regarding the cause for the overexpenditure of appropriated funds from the Governor’s
discretionary fund, the former Secretary of Finance said that he continued to certify the
availability of funds after the appropriated funds had been depleted because “the account had
been historically overspent.” The former Secretary also stated that, at the time, he was more
concerned with reducing the overall deficit of the government than with stopping the
discretionary fund appropriations from being overspent. The former Executive Assistant to
the Governor said that the former Governor told him that he (the former Governor) was
“ultimately” responsible for the discretionary fund and that he therefore should not be
questioned regarding this issue.

In our opinion, because of the potential risk for the improper use of the discretionary funds,
the Commonwealth Legislature should more actively monitor the use of the discretionary
funds. In addition, the Legislature, when enacting future appropriations for the discretionary
funds, may want to consider placing restrictions on the allowable uses of the funds, defining
what constitutes a “public purpose,” and requiring the Office of the Governor to submit
reports on the use of the fund to the Legislature for monitoring purposes.

Recommendations

We recommend that the Governor of the Commonwealth of the Northern Mariana Islands:

        1. Direct the Attorney General of the Commonwealth of the Northern Mariana
Islands to review the overexpenditures of the former Governor’s discretionary fund made
during fiscal years 1996,1997, and 1998 and to take actions as appropriate.
       2. Develop and implement written policies and procedures that clearly define the
purposes for which the discretionary fund can be used.

We recommend that the Legislature of the Commonwealth of the Northern Mariana Islands:

        3. Establish a requirement for the Office of the Governor to submit periodic reports
on the status of the discretionary fund to the Legislature for monitoring purposes.

Commonwealth of the Northern Mariana Islands Response and Office of
Inspector General Reply

The Governor, the President of the Senate, and the Speaker of the House of Representatives
were requested to provide their written responses to the draft report by February 26, 1999.
However, as of March 9, 1999, responses had not been provided. Accordingly, the three
recommendations are unresolved (see Appendix 3).




                                             6
B. REPROGRAMMING ACTIONS

During fiscal years 1996 and 1997, the OfIke of the Governor’s Offke of Management and
Budget authorized the reprogramming of funds totaling $432,764 between object
classifications for appropriations that the Legislature had specifically restricted from
reprogramming authority. The reprogramming of funds appropriated by the Commonwealth
Legislature is governed by Title 1, Section 7402 (a)( 1) (“Reprogramming Authority”), of the
Commonwealth Code and by specific restrictions contained within each annual appropriation
law. However, the former Special Assistant of the Office of Management and Budget said
that he approved the reprogramming of !%nds based on verbal instructions from the former
Governor. In addition, we found that the Legislature was not aware that the improper
reprogramming actions were occurring because the Ofike of the Governor was not
submitting the required quarterly and annual reports on reprogramming actions to the
Legislature. As a result, appropriated funds of $432,764 were not available for the purposes
intended by the Legislature.

Unauthorized Reprogramming

Under Title 1, Section 7402, of the Commonwealth Code, the authority to reprogram
appropriated fimds is limited to only those instances when it will serve a public purpose. In
addition, the section prohibits the use of reprogramming actions to create an appropriation
where one does not exist and requires the Governor’s Offke to report all reprogramming
actions to the Commonwealth Legislature on a quarterly and annual basis. Finally, the
appropriation laws for fiscal years 1996 and 1997 (Commonwealth Public Laws 9-66
and 10-41, respectively) prohibited the reprogramming of funds between specific object
classes, such as office equipment, office furniture, offke rent, building improvements,
training, and vehicle purchases.

Based on our review of all 185 reprogramming actions, totaling $3.3 million, that were made
during fiscal years 1996 and 1997, we found that 49 actions, totaling $432,764, were
improperly reprogrammed either from or into object classes which were specifically
restricted by appropriation laws. For example, on April 30, 1996, the former Special
Assistant authorized the reprogramming of fi.mds totaling $92,000 from the Department of
Public Health and Environmental Services accounts for wages and salaries ($69,828),
personnel insurance ($3,680), and retirement contributions ($18,492) to purchase vehicles
for the Commonwealth’s Emergency Management Offke. Although these expenditures may
have been for legitimate public purposes, the reprogramming of these funds to the
Emergency Management Office was not approved by the Legislature.

The former Special Assistant for the Commonwealth Office of Management and Budget,
who had approved the 49 reprogramming actions, said that he approved these actions because
the former Governor instructed him to do so based on advice provided to the former
Governor by his legal counsel. The Special Assistant said that he was not provided any
documents from the former Governor’s legal counsel to support the former Governor’s
statement.

                                             7
We also found that the Office of the Governor had not assigned responsibility for preparing
and submitting the quarterly and annual reports on reprogramming actions which were
required by the Commonwealth Code. The House of Representatives Vice Chairman of the
Committee on Ways and Means said that the required quarterly and annual reports on
reprogramming actions were not submitted by the Office of the Governor to the Legislature
and that the Legislature did not have full-time technical staff available to assist in legislative
matters, such as ensuring that the Office of the Governor complied with the reporting
requirements. At the time of our review, the Vice Chairman said that the Legislature was
hiring a certified public accountant and an economist to perform these functions.

Recommendations

We recommend that the Governor of the Commonwealth of the Northern Mariana Islands:

        1. Require the Attorney General of the Commonwealth of the Northern Mariana
Islands to review the questionable reprogramming actions taken during fiscal years 1996 and
1997 and take actions as appropriate.

       2. Assign responsibility for preparing and submitting the required quarterly and
annual reports on reprogramming actions to the Commonwealth Legislature.

Commonwealth of the Northern Mariana Islands Response and Office of
Inspector General Reply

The Governor was requested to provide a written response to the draft report by February 26,
1999. However, as of March 9, 1999, a response had not been provided. Accordingly, the
two recommendations are unresolved (see Appendix 3).




                                                8
                                  OTHER MATTERS

During the audit, we also noted that the former Governor authorized, without a legislative
appropriation, a loan from the Commonwealth’s General Fund to the Tinian Casino Gaming
Control Commission’ to provide funds for the operations of the Commission during fiscal
year 1997. Commission ResolutionNo. 97-O 1 states that the Gaming Commission approved
a Memorandum of Agreement between the former Governor and the Gaming Commission’s
Chairman which was purportedly executed on December 4, 1996.3 The Resolution stated
that the agreement provided for the Office of the Governor to “advance” funds to the Gaming
Commission for its operations during fiscal year 1997. Consequently, during the period of
December 6,1996, through November 12,1997, the Department ofFinance advanced a total
of $3.4 million from the Commonwealth’s General Fund to the Gaming Commission.

Title I, Section 7709 (“Construction of Appropriation Acts”), of the Commonwealth Code
states, “No Public Law shall be construed to make an appropriation out of the
Commonwealth General Fund, Treasury, or to authorize the execution of a contract involving
the payment of money in excess of appropriations made by law, or to authorize any
borrowing by the Commonwealth or any agency, unless the law shall in specific terms
declare an appropriation to be made, or that a contract may be executed, or that borrowing
is authorized.” We believe that the loan to the Gaming Commission may not have been in
accordance with the provisions of Section 7709.

At the completion of our fieldwork, the Commonwealth’s Office of the Public Auditor was
performing an audit of the Gaming Commission’s financial activities, including the loan
made by the former Governor to the Gaming Commission. During testimony before the
Commonwealth Legislature, the Public Auditor stated, “There is a question of the MOA’s
[Memorandum of Agreement] legality in the absence of an appropriation authorizing the
advance of money from the General Fund to the Tinian Casino Gaming Commission.”
Accordingly, we believe that the Governor, upon issuance of the Office of the Public
Auditor’s report on the Gaming Commission, should act on the report’s recommendations
as appropriate and, if necessary, require the Attorney General of the Commonwealth of the
Northern Mariana Islands to review the circumstances regarding the loan and to take actions
as appropriate.




2The Tinian Casino Gaming Control Commission was established by the Tinian Casino Gaming Control Act
of 1989 to regulate casino gambling on the island of Tinian.

3Although the Resolution made reference to a December 4, 1996, Memorandum of Agreement between the
former Governor and the Commission Chairman, Commonwealth officials were unable to provide us a copy
of the agreement during the audit.

                                                 9
                                                    APPENDIX I


              CLASSIFICATION OF MONETARY AMOUNTS


                                        Funds To Be Put
                 Finding Areas           To Better Use*

        A. Expenditure Control              $6,477,010

        B. Reprogramming Actions               432.764

              Totals                        $6.909.774




*Amounts represent local finds

                                   10
                                                                           APPENDIX 2
                                                                             Page 1 of 2

      STATUS OF AUDIT REPORT RECOMMENDATIONS

Finding/Recommendation
       Reference            status                       Action Reauired

         A.1             Unresolved.        Provide a response to the recommendation
                                            indicating concurrence or
                                            nonconcurrence. If concurrence is
                                            indicated, provide an action plan that
                                            identifies the target date and the title of
                                            the official responsible for directing the
                                            Commonwealth’s Attorney General to
                                            review the overexpenditures of the former
                                            Governor’s discretionary fund. If
                                            nonconcurrence is indicated, provide the
                                            reasons for the nonconcurrence.

         A.2             Unresolved.        Provide a response to the recommendation
                                            indicating concurrence or
                                            nonconcurrence. If concurrence is
                                            indicated, provide an action plan that
                                            identifies the target date and the title of
                                            the official responsible for developing and
                                            implementing written policies and
                                            procedures which clearly define the
                                            purposes for which the discretionary fund
                                            can be used. If nonconcurrence is
                                            indicated, provide the reasons for the
                                            nonconcurrence.

         A.3             Unresolved.        Provide a response to the recommendation
                                            indicating concurrence or
                                            nonconcurrence. If concurrence is
                                            indicated, provide an action plan that
                                            identifies the target date and the title of
                                            the offkial responsible for establishing a
                                            requirement for the Office of the
                                            Governor to submit periodic reports on
                                            the status of the discretionary fund to the
                                            Legislature for monitoring purposes. If
                                            nonconcurrence is indicated, provide the
                                            reasons for the nonconcurrence.




                                       11
                                                                       APPENDIX 2
                                                                         Page 2 of 2


Finding/Recommendation
       Reference            Status                    Action Required

         B.l             Unresolved.    Provide a response to the recommendation
                                        indicating concurrence or nonconcurrence.
                                        If concurrence is indicated, provide an
                                        action plan that identifies the target date
                                        and the title of the official responsible for
                                        requiring the Commonwealth’s Attorney
                                        General to review the questionable
                                        reprogramming actions taken during fiscal
                                        years 1996 and 1997. If nonconcurrence is
                                        indicated, provide the reasons for the
                                        nonconcurrence.

         B.2             Unresolved.    Provide a response to the recommendation
                                        indicating concurrence or nonconcurrence.
                                        If concurrence is indicated, provide an
                                        action plan that identifies the target date
                                        and the title of the official responsible for
                                        preparing and submitting the required
                                        reports on reprogramming actions to the
                                        Legislature. Ifnonconcurrence is indicated,
                                        provide the reasons for the nonconcurrence.




                                       12
                 ILLEGAL OR WASTEFUL ACTIVITIES
                     SHOULD BE REPORTED TO
                THE OFFICE OF INSPECTOR GENERAL


                             Internet/E-Mail Address

                                      www.oig.doi.gov



                     Within the Continental United States

U.S. Department of the Interior                         Our 24hour
Offke of Inspector General                              Telephone HOTLINE
1849 C Street, N.W.                                     1-800-424-5081 or
Mail Stop 5341                                          (202) 208-5300
Washington, D.C. 20240

                                                        TDD for hearing impaired
                                                        (202) 208-2420 or
                                                        l-800-354-0996


                    Outside the Continental United States

                                     Caribbean Region

U.S. Department of the Interior                         (703) 235-9221
Office of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
Arlington, Virginia 22203

                                    North Pacific Region

U.S. Department of the Interior                         (671) 6476060
Office of Inspector General
North Pacific Region
415 Chalan San Antonio
Baltej Pavilion, Suite 306
Tamuning, Guam 96911
              .




 :
 .   Toll Free Numbers:
 :    l-800-424-5081
 :    TDD l-800-354-09%
 :
 :
 :   FTS/Commercial Numbers:
 :    (202) 208-5300
 :    TDD (202) 208-2420
 :
 :
 :
 :
      HOTLINE
 :   1849 C Street, N.W.
:    Mail stop 5341
:
:    Washington, D.C. 20240
:
.
:
:
:
.
:
m
:
:
m
a
